    OFFICE OF
NSPECTOR GENERAL




MEDICAID COST SHARING




        JuLY 1993
                       OFFICE      OF INSPECTOR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sewices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE      OF AUDIT         SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE      OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE       OF EVALUATION              AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Joy Quill, Regional Inspector General and Robert A
Vito, Deputy Regional Inspector General. Project staffi

REGION                                                HEADQUARTERS

Linda M. Ragone, Project Leader                       Vicki A. Greene

Robert A. Katz                                        Barbara R. Tedesco

Daniel E. Brooks

Cynthia R. Hansford




For additional copies of this report, please contact the Philadelphia Regional Office at

1-800-531-9562.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




     MEDICAID COST SHARING




           JULY 1993   OEI-03-91-01800
              EXECUTIVE                          SUMMARY


PURPOSE

To (1) review State Medicaid cost sharing policies and (2) determine their impact on
the program.

BACKGROUND

Medicaid is one of the fastest growing programs in Federal and State budgets. Total
Medicaid expenditures grew from $72.1 billion in 1990 to $94.5 billion in 1991, an
increase of 31 percent. As Medicaid costs continue to rise, Federal and State officials
are searching for cost containment measures.

One of the fastest growing trends in corporate health care cost containment is greater
beneficiary cost sharing. Cost sharing requires beneficiaries to pay a portion of their
health care costs. State Medicaid programs have also increasingly been using cost
sharing as a cost containment method. States not currently using cost sharing policies
may begin to reexamine the issue since Medicaid now absorbs 14 cents of every State
dollar spent.

Section 1902(a)(14) of the Social Security Act provides that Medicaid may impose
“enrollment fees, premiums, or similar charges, and deductions, cost sharing, or similar
charges.” Children, HMO enrollees, pregnancy setices, emergency setices, hospice
services, and services provided to residents of nursing facilities or medical institutions,
are exempt from cost sharing.

To examine States’ cost sharing policies, we collected detailed information from State
Medicaid directors.  We also reviewed data collected by the Health Care Financing
Administration’s (HCFA) information systems.

FINDINGS

7hntY-seven States use cost shatig   in their iUedicaiJ pmgrarns.

Cost shmingpmgrarns save money.

States without cost sluvihg could save between $167 and $335&n           annudy (of which
the Fedeml share WOUUbe $99 to $198 million) by applying cost siuuing to just four
services - ihpatient hospita~ outpatient hixpita~ physiciizn Vi&sj and prescription dugs.

Statt3 with cast sharing& not reprt sk”*ant      impacts on utikmtion of selvikes or
access to care.




                                             i
Cost sharing   States   have   not   expenkced exctwive adrninhbutivq   rew      orpmvider
budem

Fed&ralrquuemaW
           “             may hindir States from &ii’@g       even more #ective   cmt shdng
~“


RECOMMENDATION

We believe that implementing or expanding cost sharing programs would allow States
to (1) reduce program expenditures; (2) maintain or increase eligible populations; (3)
maintain or increase covered services; and/or (4) maintain or increase reimbursement
rates.

As a result of these conclusions, we make the following recommendation.


l%e HCFA shouiii promote the dkvelhpment of effective cart sharing prqyums by:

       �	       allowing States to experiment with cost sharing programs that target new
                populations and reflect more substantial cost sharing amounts, and/or

       F	       recommending changes to Federal requirements allowing for greater
                State flexibility in determining exempted populations and semices, and
                allowing higher recipient cost sharing amounts.

The HCFA might also consider funding evaluation projects which formally assess cost
sharing programs and provide information on the most effective structure of such
programs.

l%e HCFA should promote the use of cost shatig in States that do not CUITentlyhave
programs l%e HCFA COUUchoose to &e           h kwdedtip in a number of ways. l%e
HCFA COlliit

       F	       encourage States to implement cost sharing by providing information
                about State experiences with cost sharing and offering technical
                assistance and clarification of Federal requirements, or

       F	       seek legislation to provide States with incentives to implement cost
                sharing programs, such as decreasing Federal matching to States who do
                not implement cost sharing, or

       �        seek legislation to mandate cost sharing for all States.




                                                   ii
AGENCY COMMENTS

The HCFA and the Assistant Secretary for Management and Budget commented on
the draft report; the full text of their comments is in Appendix D. Neither agency
concurred with our draft recommendation.      We have made several changes in
response to their suggestions. However, we believe that the available evidence
supports cost-sharing as a viable cost saving mechanism for financially strapped State
programs, and would have a less deleterious effect on Medicaid beneficiaries than
poor payment rates to providers, or elimination of services or eligible groups.




                                           ...
                                           m
                        TABLE                    OF CONTENTS

                                                                                                                    PAGE

EXKUTM3            SUMMARY              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS

     States with cost sharing           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


     Reported      savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..’7


     Projected savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             8


     Utilization and access tocare.               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


     State experiences         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..O..        11


     Federal hindrances . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATION                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES


A    Selected Bibliography . . . . . . . . . . . ., . ., . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Cost Savings Estimate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


CCost      Sharing Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l


D: Agency Comments               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l

                         INTRODUCTION


PURPOSE

To (1) review State Medicaid cost sharing policies and (2) determine their impact on
the program.

BACKGROUND

costShathg
Medicaid is one of the fastest growing programs in Federal and State budgets. Total
Medicaid expenditures grew from $72.1 billion in 1990 to $94.5 billion in 1991, an
increase of 31 percent.

As Medicaid costs continue to rise, Federal and State officials are searching for cost
containment measures. One of the fastest growing trends in corporate health care
cost containment is greater beneficiary cost sharing. Cost sharing requires
beneficiaries to pay a portion of their health care costs. State Medicaid programs
have also increasingly been using cost sharing as a cost containment method.

States not currently using cost sharing policies may begin to reexamine the issue since
Medicaid now absorbs 14 cents of every State dollar spent. According to Raymond
Scheppach, Executive Director of the National Governor’s Association, as State
budgets rise and “governors are becoming more reluctant to ask for tax increases,
States are likely to cut more deeply into spending and perhaps impose new ‘user fees’
for specific programs.”*

Federal Cmt Shuring Legi@ion     and Regddion

Section 1902(a)(14) of the Social Security Act allows Medicaid to impose “enrollment
fees, premiums, or similar charges, and deductions, cost sharing, or similar charges.”
Medicaid cost sharing legislation has changed since the original 1965 law. The largest
change to date occurred under the Tax Equity and Fiscal Responsibility Act of 1982
(TEFRA).

The TEFRA expanded cost sharing options to allow both the medically and
categorically needy to pay nominal fees for almost all services. The legislation
precludes providers participating under the State plan from denying sexvice due to an
eligible recipient’s inability to pay the cost sharing amount. However, the provision
does not extinguish the recipient’s liability for the amount.


   lJirn Luther, “States may be forced to cut spending more despite tax increases,”
The Baltimore Sun, October 30, 1991, 6A.


                                            1
Section 1916 of the Social Security Act was added by TEFRA and exempts the
following populations andsemices from cost sharing: children, HMO enrollees who
are categorically needy, pregnancy sexvices, emergency sem-ices, hospice sexvices, and
services provided to residents of nursing facilities or medical institutions. In addition,
specific types of cost sharing such as enrollment fees, premiums, or similar charges
cannot be imposed upon the categorically needy.

The Medicaid cost sharing payment regulations outlined in 42 CFR Ch. IV sections
447.50-.59 establish minimum and maximum charges for enrollment fees and
premiums based on families’ gross monthly income. The maximum deductible,
coinsurance, or copayment charge for institutional services cannot exceed 50 percent
of the Medicaid agency’s payment for the first day of semice. For non-institutional
senfices:

  �     deductibles may not exceed $2 per month per family per period of eligibility;
  �     coinsurance rates may not exceed 5 percent of the service payment; and
  �     maximum copayment chargeable to recipient for services is $.50 to $3.00,
        depending on the cost of the service.

%viouscat Shdlg Sllidiks
The largest study to date on the effects of cost sharing was conducted by the Rand
Corporation. The Health Insurance Experiment reviewed health care consumption by
insured individuals at randomly assigned levels of cost sharing. Over 7,000 people
were assigned coinsurance rates of O, 25, 50 and 95 percent. The purpose was to
determine the potential effects of cost sharing on service utilization and overall health
status. The federally-sponsored study ran over several years in the 1970’s and early
1980’s.

The study found that patients with limited cost sharing used approximately one-third
fewer medical services than patients receiving free care. Apart from better blood
pressure control and corrected far vision, participants in free care did not have
significantly better health outcomes than patients with cost sharing plans.2

In a review of California’s 1972 cost sharing experiment, most Medi-Ca13 beneficiaries
thought that cost sharing had not affected their health care. However, 17 percent




     2Robert H. Brook, Robert H., John E. Ware, Jr., William H. Rogers, Emmet B.
Keeler, Allyson R. Davies, Cathy A. Donald, George A. Goldberg, Kathleen N. Lohr,
Patricia C. Masthay, and Joseph P. Newhouse, “Does Free Care Improve Adults’
Health? Results from a Randomized Controlled Trial,” The New Erwland Journal of
Medicine Vol. 309 No. 23 (December 8, 1983): 1426-34.

      3Califomia’s Medicaid program is called Medi-Cal.


                                              2
thought it had reduced the care available to them. These 17 percent were for the
most part in households with chronic or significant medical needs.4

A more recent study on Medicaid prescription drugs found that New Hampshire’s
monthly limit on prescriptions caused a 30 percent drop in the number of
prescriptions filled. After the limit was rescinded and a $1.00 cops   ent was
implemented, prescriptions increased to just below pre-limit levels. F

For a more inclusive list of cost sharing references see Appendix A.

METHODOLOGY

Sue Imerviews

We conducted structured telephone interviews with State Medicaid Directors or their
representatives.  To facilitate data collection, information sheets were sent to all States
that had cost sharing programs prior to the interview. We also asked States to
provide us with written material on

  �    the types and amounts of cost sharing,

  �    reported cost projections and savings, and

  �    cost sharing program evaluations.

We interviewed officials in 49 States and the District of Columbia. State officials in
California declined to be interviewed but did provide us with written material.
Whenever possible, we have included California’s information in our State statistics.

Although Arizona does not have fee for service reimbursement, it was included in our
interviews. Under the Title XIX demonstration project, the Arizona Health Care Cost


    4Carl E . Hopkins, Milton I. Roemer, Donald M. Procter, Feline Gartside, James
Lubit~ Gerald A. Gardner, and Marc Moser, “Cost-Sharing and Prior Authorization
Effects on Medicaid Services in California: Part I. The Beneficiaries’ Reactions,”
Medical Care Vol. XIII No. 7 (July 1975): 582-94.

    5Stephen B. Soumerai, Jerry Avom, Dennis Ross-Degnan, and Steven Gortmaker,
“Payment Restrictions for Prescription Drugs Under Medicaid: Effects on Therapy,
Cost, and Equity,” The New England Journal of Medicine Vol. 317 No. 9 (August 27,
1987): 550-56.

     Stephen B. Soumerai, Dennis Ross-Degnan, Jerry Avom, Thomas J. McLaughlin,
and Igor Choodnovskiy, “Effects of Medicaid Drug-Payment Limits on Admission to
Hospitals and Nursing Homes,” The New En~land Journal of Medicine Vol. 325 No.
15 (October 10, 1991): 1072-7.



                                             3

Containment System provides care through organized health plans and capitated
reimbursement.     However, Arizona does allow cost sharing by the health plans for a
limited number of semices. Therefore, we requested information on their experiences
with cost sharing.

Data Rep*    and Infonnution $Wzms

The information collected from our State interviews was compared with the HCFA’S
new State Profile Data System (spDATA) for inaccuracies. We found a few
discrepancies and informed HCFA’S Medicaid Bureau about the differences. The
errors were found to lie with the data system and not our State-reported data. They
were caused by time lags on newly implemented policies or data input mistakes.

To project cost savings, we used service numbers supplied by States on 1991 Form
HCFA-2082. The data is based on service claims paid by State Medicaid agencies in
Fiscal Year 1991. See Appendix B for a detailed description of the cost savings
projection.




                                           4

                                   FINDINGS


TWENTY-SEVEN STATES USE COST SHARING IN THEIR MEDICAID

PROGRAMS.


Twenty-six States cited containing costs or reducing unnecessary utilization as the main
reasons for implementing recipient cost sharing in their Medicaid programs. Several
States implemented cost sharing to promote an active role for recipients in their
health care. One State also mentioned that they use cost sharing to encourage
participation in health maintenance organizations (HMO) since HMO enrolled
Medicaid recipients are exempt from cost sharing. See Appendix C for a list of States
with cost sharing.

States have   been using cost sharing for more than two decades. Half (14 of 27) the
States have   implemented their programs incrementally over the years. Five States
established   programs in the early to mid 1970’s. Most States began programs during
the 1980’s.   Two States implemented cost sharing programs in 1992.

Of the 24 States not currently using cost sharing, almost half are now considering
programs. In fact, New York plans to implement cost sharing in the early part of
1993. The main reason States are considering cost sharing is budgetary restraints.

I%   most jhqliently used   form of cost sharing is copayments.

AU States with cost sharing use copayments as the main mechanism for sharing costs

with recipients. Copayments range from 50 cents to $3.00, with the exception of

inpatient hospital copayments which range up to $50 per admission. Four States also

use 2 or 5 percent coinsurance for certain services and one State recently

implemented an inpatient hospital deductible of $100.


No States use enrollment fees or premiums for medically needy individuals as allowed

by Federal law. Two States used premiums in the late 1970s but found them

cumbersome to administer and discontinued their use. Both States recounted that

local offices had difficulty administering the programs since premiums were based on

recipient income. Since incomes changed monthly, the premiums had to be

recalculated every month resulting in increased staff time and record keeping.


States automatically &duct cost sharing amounti jiom provider reiinbumment.

All Statesb reduce provider reimbursement for eligible recipients and services
regardless of whether the copayment is collected. - The majority do not require


     %xcept Arizona, which takes copayment amounts into account when developing
its cavitation rates.


                                               5

providers to indicate on the claim form whether they have collected or attempted to
collect the cost sharing amount.

States use computer edits in their information systems and provider-supplied
information to administer cost sharing. Computer edits match information from
eligibility files to claim forms for exemptions such as children and nursing home
residents. Edits also identify exempted services by diagnostic code, e.g. emergencies.
Other States use exemption codes supplied by the provider to indicate emergency,
family planning, or pregnancy services.

States appZycost sharing to both mandatmy and optional Medicaid services with
Fm+tin      dJUgSbebag the most jiequent cost stig  senahz

States apply cost sharing to a wide array of services. Some States have chosen to
apply cost sharing only to mandatoxy selvices (States must provide these semices as
required by law); others apply it only to optional services (States elect whether or not
to cover these services).

Most States apply cost sharing to both mandatory and optional services. Almost all
States (25 of 27) employ cost sharing on prescription or pharmacy services. The
services to which States most often apply cost sharing are shown below. A complete
list of cost sharing services by State is presented in Appendix C.


                 Services Most Frequently Used
                         for Cost Sharing
             Types of Service

                 Proscrlpt~onDrugs

                Outpatient   Hospital


                       Optometrists


                 Phy8ician Services


                         Podiatrists


                  Inpatient Hospital

                                        o   5    10   15     20    26     30
                                                Number of States
                                                      N.27


The number of services with cost sharing varies among States. One State (PA)
applies cost sharing to all but a few exempted services while five States apply


                                                6
cost sharing to only one service. Two-thirds of States have more than five services
with cost sharing.

States reported a number of rationales for selecting services for cost sharing. The
most common was services for which States believed there was unnecessary utilization.
Twenty-five percent said they wanted to put cost sharing on all the services allowed by
Federal regulation. Several said they specifically chose services where they felt there
would not be a negative impact on access. Other States mentioned choosing services
where cost sharing would be easier to administer and collect. Finally, three States
were given specific service choices from their State legislatures.

COST SHARING PROGRAMS SAVE MONEY.

Twenty-two of the 27 States reported that their programs reduced Medicaid
expenditures. 7 Three States which had recently implemented programs had no
information yet. One State which had no statistical proof of savings declined to
respond.

Eleven States reprtd          annual cost savings mn~gjhm                 $.325,MXJto $9.5 million

Of the 22 States reporting savings, 11 provided financial data. As shown below, eight
States provided statistics from their information systems or outside evaluations and the
remain-tig three were estimated dollars.

The three remaining States provided dollar estimates of $325,000, $500,000, and
$2,250,000. These savings were attributed to cost sharing applied to prescription drug
services.




IIColorado                I        9          I       200,000         I     FY 1991        $2,168,342
 Maine                            10                  147,886               FY 1992         $432,2461
 Montana                          26                   70,000               FY 1991         $917,412
IINorth Carolina          I        9          I       751,000         I     FY 1992        $5,518,910
 Pennsylvania                     all               1,177,161               FY 1990        $9,424,585
 South Dakota                     10                   55.000               FY 1992         $708,384
 Vermont                           3                   68,622               FY 1992         $906,199
 Wisconsin                        19                  416,000               FY 1988        $6,700,000
  Savings are for prescriptiondrugs only and for the 11 month period 7191-5192




    ‘California’s written material did not provide us with cost savings information.


                                                        7
Of the eight States that provided actual cost savings, only Wisconsin included $2.1
million in savings from decreased utilization. The remaining seven States’ savings
figures represent only reductions in provider reimbursement by the amount of
recipient cost sharing.

Stkzteswithout jhmcial   dirts believe cost shankg saves money.

The 11 States whose information systems did not collect savings information
nevertheless believe their programs have achieved savings. Five States believe savings
come from recipient cost sharing dollars and six believe savings come from a
combination of cost sharing dollars and reduced utilization.

STATES WITHOUT COST SHARING COULD SAVE BETWEEN $167AND $335
MILLION ANNUALLY BY APPLYING COST SHARING TO FOUR SERVICES.

Potential savings for 24 States without cost sharing depends on the number of eligible
beneficiaries and services to which cost sharing is applied. However, we estimate that
cost sharing on four semices in these States could save the Medicaid program between
$167 and $335 million a year. The Federal share could range from $99 to $198
million and the States could save between $68 to $137 million.

These savings are due to reductions in provider reimbursement alone and do not
include savings from possible utilization changes. The savings would be even greater if
States implemented cost sharing on more than just these four semices.

This estimate includes four services -- prescription drugs, physician visits, inpatient
hospital stays, and outpatient hospital visits. These services were selected because
information on their use by recipients was available from State HCFA-2082 reports for
1991.

The number of services provided by each State without cost sharing was multiplied by
the most frequently used copayment amount by States with cost sharing. The cost
savings projection includes savings only from reductions in service reimbursement by
the amount of recipient cost sharing and not reductions in service utilization.

The high estimate of $335 million is not reduced by the number of services that would
be exempt according to Federal regulations. The $167 million estimate excludes these
exempted semices. See Appendix B for a more detailed description of the cost
sharing projection.

STATES WITH COST SHARING DO NOT REPORT SIGNIFICANT IMPACT’S
ON UTILIZATION OF SERVICES OR ACCESS TO CARE.

Although 15 States cited reducing inappropriate utilization as one of the reasons for
implementing cost sharing, States have not experienced significant reductions in the
use of semices after implementation of cost sharing.


                                             8
only the States have formally evahated their cm sharing pmgnmw l%eir resuklshave
Wma$ but ih no case did they @i a strung rehionship between the irnplemenkrfion of
cost shankg and significant reductions h the use of senices.

The three States that have conducted formal evaluation are Wisconsin, California, and
Montana.

Wisconsin’s Office of Policy and Budget reviewed the State’s cost sharing program in
1989.8 Wisconsin looked at utilization information for cost sharing services
implemented over several years. For a group of copayments implemented in 1981,
they found a 1.5 percent decrease in utilization for services that were not greatly
affected by other program changes (chiropractic, medical equipment and supplies, and
transportation).  For copayments instituted or increased in 1988, Wisconsin found a
1.5 percent drop in utilization for physician services and no decrease in outpatient
hospital services. The Wisconsin report cautions that

       The utilization effect statistic must be interpreted with caution since
       factors other than copayments may account for this change, e.g., changes
       in provider participation. Probably the way to interpret the 1.5
       utilization percentage is as the maximum that might be due to
       copayments.

In 1985, under contract with HCFA, California evaluated the Medi-Cal copayment

demonstration project.9 The evaluation found no significant changes in utilization for

physician office visits, emergency room visits, physical therapy, chiropractic services,

and optometry after copayments were implemented.


Montana’s evaluation found that after copayments were implemented for 19 services,

recipient usage increased for all services except 3-- inpatient hospital, dental, and

prescription drugs. 10 The reported decreases for inpatient hospital and dental

services could not be attributed solely to copayment since there had also been changes

in reimbursement methodologies and coverage. However, the 15 percent decrease in

utilization from 3.17 prescriptions to 2.68 prescriptions per recipient may have been

attributable to copayments.




   ~imothy Tyson, The Impact of Coua vments on Medical Assistance Recipients: A
ReDort to the Lazis]ature (Wisconsin: Wisconsin Department of Health and Social
Semites, Office of Policy and Budget, Evaluation Section, June 1989).

    ~. Jerome Hansen, James C. Cicconetti, Terri Stackpole, and John Keith,
California Statewide Cor)avment Proiect (California: California Department of Health
Services, July 1985), HCFA Contract No. 1l-P-98206/9-03.

   %PMG Peat MarWick, State of Montana, Department of Social and
Rehabilitation Services: Review of the Cops vment Prowam, (November 1990).


                                            9
than 2 percent of the calls to the Medicaid recipient hotline were about copayments in
the 2 months preceding and the 4 months following copayment implementation.        Most
of these calls (95 percent) were questions and clarifications about cost sharing while 5
percent were complaints.

COST SHARING STATES HAVE NOT EXPERIENCED EXCESSIVE
ADMINISTRA~     RECIPIENT, OR PROVIDER BURDENS.

Overall, States with cost sharing indicated they had few problems with implementation.
Over 45 percent of States said they had no implementation problems. Other States
mentioned working out concerns with advocacy groups and provider associations.
Four States have had court cases brought against them by patient advocaq groups.
All of these States have since implemented cost sharing.

Interestingly, more than half the States (15 of 24) without cost sharing believed it
would be a financial burden for them to administer. They also felt cost sharing would
impose too great a financial burden on recipients and providers.

l%e dninistmtive expense h bm”cally a one-time minimal cost for information system
changes and information diweminatz”on

Five States furnished dollar estimates ranging from $2,000 to $100,000 for the
information system changes. Two States estimated their staff time for rule-making and
information dissemination at $15,000 and $30,000 respectively. The remaining States
either could not break out the cost of their cost sharing program or estimated the cost
to be “minimal” or “negligible.”

New York, which is attempting to implement cost sharing, reported implementation
cost of $1.5 million. Approximately $1 million was for client notification and $500,000
for information system changes including department and contractor costs.

The higher implementation costs are due to the large size of New York’s program and
the number of notices sent out due to court challenges and delays. However, if New
York’s initial cost savings projections are correct, New York should recover its
expenditure in 1 month’s time.

Some States reduce burden on recipient by expanding eumptions and capping cost
sharihg ammuuk

Fifteen States have expanded the age of exempted children beyond the Federal
requirement of 18 and under. Twelve States have expanded the age to 21, two
increased to age 19, and one to age 20.

Fifteen States have expanded the pregnancy-related service exemption to include all
pregnant women. Some States did this to alleviate administrative confbsion, so that
providers can exempt any woman who is pregnant. Otherwise, States require


                                           11
providers to indicate that the service is pregnancy related, e.g., providers must write
“related to pregnancy” on the prescription.

At least 12 States also exclude services to severely or chronically ill individuals. These
include dialysis services, chemotherapy, radiation therapy, oxygen equipment, and
home and community based services:

Five States have also tried to ensure that recipients are not overburdened by large
cost sharing amounts by establishing caps on specific services or total cost sharing
amounts.

  �    Colorado has a cost sharing cap of $150 per year.

  �    Maine established monthly caps for each cost sharing service that range from
       $4 to $30 per month.

  �    Montana allows cost sharing up to $127 per year for families. It also limits the
       cost sharing for inpatient hospital stays to $66 per admission.

   �   Pennsylvania caps copayments at $90 for a 6-month period.       Inpatient hospital
       copayments may not exceed $21 per admission.

   �   Wisconsin caps inpatient hospital semices, physician visits, and sole-provider
       pharmacy se&ices- at various ‘dollars limits per year. Cost sharing f~r
       physical/occupational/speech  therapy and psychotherapy ends after so many
       hours or dollars of sexvice provided.

All States, except Pennsylvania, stop reducing provider payments when the dollar
amount is reached. Pennsylvania rebates the amount paid over the limit to the
recipient every 6 months.

Overall, among the 17 States that could estimate the number of recipients exempt
from cost sharing, 9 States exempted between 40 and 50 percent and 8 exempted over
50 percent.

lhwider responses to cost shatig are mired     Howeveq provider pdcipation     in M&aid
has not drop+ due to Ctkrtsharing.

Over half the States reported little or no negative response from physicians when they
implemented cost sharing. Several of these States said providers were used to cost
sharing since it is a component of most third party health insurance.

Other States reported mixed responses, especially among different provider groups.
Several States said specific provider groups in their State actually supported cost
sharing by Medicaid recipients. Four States said provider groups were extremely
opposed to cost sharing in the Medicaid program.


                                             12
Provider complaints focused mainly on the administrative hassle attached to collecting
cost sharing payments from recipients. Providers explain that if the amount is not
collected at the time of service, the cost of billing for the amount exceeds the amount
billed. Complaints were also received that providers looked at this as reducing
reimbursement levels that they already consider too low.

Almost 90 percent of States (21 of 24) did not monitor collection of copayments by
providers. Therefore, States don’t know if recipients are making the payments.
However, about one-third of the States believed that there are instances when cost
sharing amounts are not being paid by recipient or collection is not being attempted
by providers.

Although there is little State collected data on the impact of cost sharing on providers,
provider surveys supply additional insight into the impact of cost sharing on physicians
and their actions. The three State evaluations highlighted the following:

  �    Approximately 50 percent of all copayments went uncollected.

  �	   Providers with high percentages of Medicaid patients were more likely to
       charge copayments.

  �	   Providers felt the nominal nature of cost sharing amounts were not worth the
       billing or collection effort.

  .	   Certain providers such as pharmacists more frequently collect cost sharing
       payments.

All except two States report no decreases in Medicaid provider participation after
implementing cost sharing. One State has lost several podiatrists and they believe this
might be due to a combination of copayments and declining reimbursement. Another
State reported discontinuing a physician visit copayment after physicians threatened to
drop out of the program. However, this same State characterized the pharmacy
providers as being positive about the cost sharing program.

FEDERAL REQUREMHWS     MAY HINDER STATES FROM DESIGNING
EVEN MORE EFFECI’IVE COST SHARING PROGRAMS.

More than 40 percent of States with cost sharing voiced concerns about Federal cost
sharing requirements. Seventy percent of these States felt that flexible Federal
requirements would allow States to increase the effectiveness of their cost sharing
programs. Several States also reported difficulty in preparing guidelines that allowed
for effective cost sharing while maintaining compliance with Federal requirements.




                                            13

States repnt that the Fe&ml exemptions are too bread and the cost sharing amoti        too
nominal for certain sewiees or eli”le recipients.

Ten States with cost sharing responded that they would like to design more effective
cost sharing programs. These States would increase cost sharing amounts or create
exemptions targeted at specific vulnerable populations or services instead of broad
exemption categories.

For example, States said they would increase coinsurance and copayment rates,
include HMO enrollees in cost sharing, and waive certain exclusions for populations
above a certain percentage of the poverty level. States speculated that this increased
cost sharing would assist them in expanding eligibility to people not currently being
served by their State’s program.

States without cost sharing also indicated that Federal cost sharing regulations are a
deterrent. Six States reported not implementing cost sharing because of restrictive
Federal requirements.

States say -g      a recijientti hwbil~ to pay cost sharing arno~     k di@ukk

Several States had difficulty in supplying guidelines to providers defining what
constitutes a recipient’s inability to pay for services. This is important since Federal
law requires service to be provided even when a recipient is unable to pay the cost
sharing amount at the time it is provided.

Most States do not have policies for handling recipients who are eligible for cost
sharing but habitually do not pay. These States tell providers that verbal confirmation
of inability to pay from recipients is proof of inability to pay. Only three States have
outlined policies for their prow”ders.

       Michigan’s provider manual states that if the recipient fails to pay a copayment,
       the provider can, in the future, refuse to serve that recipient as a Medicaid
       patient.

       Pennsylvania advocates that providers cannot deny sefices because of
       recipient’s inability to pay, unless there is “creditable evidence” that the
       recipient is able to pay, but refuses to do so. The policy states that a recipient
       found making purchases of non-essential items is an example of creditable
       evidence and requires the provider to document this in the record.

       Wyoming’s guidance to providers states that since Medicaid copayment
       amounts are nominal, if a recipient regularly fails to pay the required
       copayment a provider may exclude the recipient from their practice.




                                             14

The majority of States have not defined the difference between unwillingness to pay
and inability to pay. States just refer providers to the Federal law stating that they
cannot deny service but that the uncollected amount is considered a debt to providers.




                                          15

                   RECOMMENDATIONS

The information in this report demonstrates that many States have developed cost
sharing programs that reduce Medicaid expenditures. States have suggested that cost
sharing allows Medicaid recipients to be a partner in their health care determinations.
It also allows Medicaid recipients to become accustomed to an element common in
private health insurance. States with cost sharing reported no evidence that cost
sharing has a negative impact on recipients.

We believe that implementing or expanding cost sharing programs would allow States
to:

       k      reduce program expenditures;

       P      maintain or increase eligible populations;

       �      maintain or increase covered services; and/or

       k      maintain or increase reimbursement    rates.

As a result of these conclusions, we make the following recommendations.

The HCFA should promote the development of #ective         cost sharbagpmgrums by:

       �	     allowing States to experiment with cost sharing programs that target new
              populations and reflect more substantial cost sharing amounts, and/or

       *	     recommending changes to Federal requirements allowing for greater
              State flexibility in determining exempted populations and services, and
              allowing higher recipient cost sharing amounts.

The HCFA might also consider funding evaluation projects which formally assess cost
sharing programs and provide information on the most effective structure of such
programs.

The HCFA shouhi promote the use of cost sharing in S&ztesthat do not CUJTendyhave
P~       m HCFA could choose to aetie        its kdemhip h a number of ways. %
HCFA COUki’

       b	     encourage States to implement cost sharing by providing information
              about State experiences with cost sharing and offering technical
              assistance and clarification of Federal requirements, or




                                             16

       E	     seek legislation to provide States with incentives to implement cost
              sharing programs, such as decreasing Federal matching to States who do
              not implement cost sharing, or

       k      seek legislation to mandate cost sharing for all States.


AGENCY COMMENTS

The HCFA and the Assistant Secretary for Management and Budget commented on
the draft report. The full text of their comments is in Appendix D.

l%e Hedh    Clue Fihancing Adminkation      Comments

The HCFA did not concur with our draft recommendation that the agency promote
effective cost sharing in the States. The HCFA cited their desire to have cost sharing
remain a voluntary State option. This desire is not inconsistent with our draft
recommendation or our revised recommendations which appear in this final report.
While mandating cost sharing is one approach that HCFA may choose to consider as
a way to promote cost sharing, both in our draft report and in this final report we list
other approaches which HCFA could use as well to accomplish this goal.

The HCFA agreed that there is sufficient evidence to show that cost sharing saves
money for the Medicaid program. However, HCFA expressed concerns regarding the
impact that cost sharing has on Medicaid recipients and providers of care.

We agree that the literature shows that certain vulnerable populations such as
children, people with disabilities, and the chronically ill may be more adversely
affected by cost sharing. And in this report, we outline some of the policies that
States with cost sharing have implemented to protect these populations. These
policies include capping cost sharing amounts, excluding certain services from cost
sharing, and exempting children up to 21 years of age.

We also agree that cost sharing must be reviewed for its impact on providers.
Although we found that cost sharing had not caused providers to leave the Medicaid
program, we recognize that States with low provider participation must be concerned
about recipients’ access to providers.

In response to these concerns, we have decided to create two recommendations.      The
first addresses effectiveness of cost sharing programs and the second addresses the
promotion of cost sharing in the Medicaid program. We believe that some of HCFA’S
concerns could be alleviated by allowing States to experiment with cost sharing
programs. More flexibility would enable States to determine the needs of their
individual program and populations and then develop a cost sharing program that fits
those needs. States, for example, could choose to exempt specific vulnerable
populations from cost sharing while targeting other populations like HMO enrollees
for cost sharing.


                                            17
m?”Asmtant Secretay for Management and Budget Comments

The Assistant Secretaly for Management and Budget believed that the sample size
and data were insufficient to support the findings and that additional sample data
needed to be collected before conclusions could be drawn on the effectiveness of cost
sharing programs.

While we agree that only three States have formally evaluated their programs,
testimonial evidence from 24 additional States confirms the evaluations’ findings. We
believe that taken together, this information provides strong enough evidence to
support our findings. Certainly, we agree that additional research on cost sharing
would be helpful; as a result, we have revised our recommendation to include the
suggestion that HCFA direct some of its evaluation resources towards this end. In the
meantime, however, we believe that the available evidence supports cost-sharing as a
viable cost saving mechanism for financially strapped State programs, and would have
a less deleterious effect on Medicaid beneficiaries than poor payment rates to
providers, or elimination of services or eligible groups.




                                          18

                                 APPENDIX                      A


                             SELECIED          BIBLIOGWHY

Beck,R.G.. “TheEffectsof Co-Paymenton the Poor.” Journal of Human ResourcesVol. IX (1974):
       129-42.

Brook, Robert H., John E.Ware,Jr., WilliamH. Rogers,Emmet B. Keeler,AllysonR. Davies,CathyA-
       Donald, George A. Goldberg,Kathleen N. Lohr, Patricia C. Masthay,and Joseph P. Newhouse.
        “Does Free Care Improve Adults’ Health? Reauhs from a Randomized Controlled Trial.” ~
        New EtuzlandJournal of Medicine Vol. 309 No. 23 (December 8, 1983): 1426-34.

Brook, Robert H., John E. Ware, Jr., William H. Rogers, Emmet B. Keeler, Allyson R. Davies, Cathy
        A. Sherbourne, George A Goldberg, Kathleen N. Lohr, Patricia Camp, and Joseph P.
        Newhouse. The Effects of Coinsuran@ on the Health of Adults: Resuha from the Rand
        Health Insurance Exueriment. Santa Monica, CA The Rand Corporation, December 1984, R-
        3055-HHS.

Congress of the United States, Congressional Budget Office. Economic Implications of Risine Health
       Care Costs. Washington, DC Congress of the United States,       Congressional Budget Office,
       October 1992.

Congress of the United States, Congressional Budget Office. Projections of National Health
       Ext)enditurtx. Washington, DC Congress of the United States,Cmgressional Budget Office,
       October 1992.

Congress of the United States, Congressional Budget Office. Rising Health Care Costs: Causes,
       Imt)lications. and Strategies. Washington, DC. Congress of the United States, Congressional
       Budget Office, April 1991.

Curtis, Richard and Ian Hill, eds.. Affording Access to Qualitv Care: Strate~ies for State Medicaid
         Cost Mana~ement. Washington, DC National Governors Association, Center for Policy
         Research, Health Policy Studies, July 1986.

Fahs, Marianne C.. “PhysicianResponse to the United Mine Workers’ Cost Sharing Program: The
       Other Side of the Coin.” Health Services Research 27:1 (April 1992): 25-45.

Hopkins, Carl E., Milton I. Roemer, Donald M. Procter, Feline Gartside, James Lubit~ Gerald A.
       Gardner, and Marc Moser. “Cost-Sharing and Prior Authorization Effects on Medicaid
       SeMces in California Part I. The Beneficiaries’Reactions.” Medical Care Vol. XIII No. 7
       (July 1975): 582-94.

Keeler, Emmet B., Robert H. Brook, George A Goldberg, Caren J. Kamberg, and Joseph P.
        Newhouse. “How Free Care Reduced Hypertension in the Health Insurance Experiment.”
        Journal of the American Medical Association Vol 254, No. 14 (October 11, 1985): 1926-31.

Keeler, Emmet B. and John E. Rolph. “How Cost Sharing Reduced Medical Spending of Participants
        in the Health Insurance Experiment.” Journal of the American Medical Association Vol 249,
        No. 16 (April 22/29, 1983): 2220-22.




                                                A-1

    Keder, Emmet B., Elizabeth M. S1OSS,
                                       Robert H. Brook,BelindaH. Operskalski,GeorgeA- Goldberg,
           and Joseph P. Newhouse. “Effectsof Cost Sharingon PhysiologicalHealth, Health Practices,
           and Worry.” Health ServicesResearch22:3(August1987):279-306.

    Levy, Richard A.. Prescrirxion Cost Sharin~ Implications for the Pharmaceutical Industrv. Reston,
            VA. National Pharmaceutical Council, 1992.

    Mornsey, Michael A.. Price Sensitivity in Health Care: Indications for Health Care Policv.
           Washington, DC The National Federation of Independent Business Foundation, 1992.

    Newhouse, Joseph P.. “Insurance Benefits, Out-of-Pocket payments, and the Demand for Medical
          Care.” Health and Medical Care Services Review Vol. 1 No. 44 (July/August 1978): 1-15.

    Newhouse, Joseph P., Willard G. Manning, Carl N. Morris, L.any L. Orr, Naihua Duan, Emmet B.
          Keeler, Arleen Leibowit~ Kent H. Marquis, M. Susan Marquis, Charles E. Phelps, Robert H.
          Brook. Some Interim Results from a ~ntrolled Trial of Cost Sharing in Health Insurance.
          Santa Monica, CA The Rand Corporation, January 1982, R-2847-HHS.

    Phelps, Charles E. and Joseph P. Newhouse. “Effectof Coinsurance: A Multivariate Analysis.” Social
            Securitv Bulletin (June 1972): 20-9.

    Scitovsky, Anne A. and Nelda McCalI. “Coinsurance and the Demand for Physician Services: Four
            Years Later.” Social Securitv Bulletin (May 1977): 19-27.

.   Scitovs&, Anne A and Nelda M. Snyder. “Effectof Coinsurance on Use of Physician Services.” Social
            Security Bulletin (June 1972): 3-19.

    Soumerai, Stephen B., Jerry Avorn, Dennis Ross-Degnan, and Steven Gortmaker. “Payment
           Restrictions for Prescription Drugs Under Medicaid: Effects on Therapy, Cost, and Equity.”
           The New Etwland Journal of Medicine Vol. 317 No. 9 (August 27, 1987): 550-56.

    Soumerai, Stephen B., Dennis Ross-Degnan, Jerry Avom, Thomas J. McLaughlin, and Igor
           Choodnovskiy. “Effectsof Medicaid Drug-Payment Limits on Admission to Hospitals and
           Nursing Homes.” The New EmzlandJournal of Medicine Vol. 325 No. 15 (October 10, 1991):
           1072-7.

    Soumerai, Stephen B., Dennis Ross-Degnan, Eric E. Fortress, and Julia Abelson. “A Critical Analysis
           of Studies of State Drug Reimbursement Policies: Research in Need of Discipline.” ~
           Millbank Quarterly Vol. 71 No. 2 (1993): 217-52.

    Valde& R. Burciaga, Robert H. Brook, William H. Rogers, John E. Ware, Emmet B. Keeler, Cathy A.
           Sherboume, Kathleen N. Lohr, George A. Goldberg, Patricia Camp, and Joseph P. Newhouse.
           “Consequences of Cost-Sharing for Children’s Health.” Pediatrics Vol 75 No. 5 (May 1985):
           952-61.

    Wells, Kenneth B., Willard G, Manning, Jr., Naihua Duan, John E. Ware, Jr., and Joseph P. Newhouse.
            Cost Sharing and the Demand for Ambulatow Mental Health Services. Santa Monica, CA
            The Rand Corporation, September 1982, R-2960-HHS.




                                                   A-2

                            APPENDIX                   B


                          COST SAVINGS          ESTIMATE

Data Some

The data was taken from information reported to the Health Care Financing
Administration (HCFA)by all States andthe District of Columbia. The States report
their data on the Statistical Repoti on Medical Care: Eligibles, Recipients, Payments and
Services, Form HCFA-2082. The data is based on claims paid for services provided in
Fiscal Year 1991 (October 1, 1990- September 30, 1991).

In the Annotations for the HCFA-2082 Data Tables, HCFA states that it does not
guarantee the accuracy of the data provided by State Medicaid Agencies. However,
HCFA does correct obvious errors and will estimate certain values when appropriate.

Savings Methoddbgy

Of the service types available from the HCFA-2082 Data Tables, we selected services
using two main criteria: (1) States frequently apply cost sharing to the service and (2)
most of the services would not be exempted by Federal regulations. Utilizing this
criteria, we selected three mandatory services and one optional sewice.

The three mandatory services include inpatient hospital, outpatient hospital, and
physician visits. The optional service is prescription drugs. Although optional services
vary by State, all States include prescription drugs as a covered senice.

Whenever possible, we applied the most commonly used cost sharing amount when
estimating our cost savings. For outpatient hospital, we selected $3 as the copayment
amount since 8 of 16 States used it. For the remaining States, three other States used
variable payments of $.50 to $3, 3 used $1, 1 used $2, and one had a coinsurance of 5
percent.

We selected $1.00 for physician visits. Out of 15 States using cost sharing on this
service, 8 used $1, 3 varied between $.50 and $3, 2 used $2, 1 used $3, and 1 used $1
or $3 depending on the type of service. We chose $1 for prescription drugs also. For
the 25 States applying cost sharing, 14 used $1, 8 used varying amounts from $.50 to
$3, 2 used $.50, and 1 used $1.50.

For inpatient hospital services, we selected the most conservative cost sharing amount
since States’ methodology for applying cost sharing varies. Six of the States with cost
sharing impose a one time copayment (or deductible for one State) per admission.
Those payments range between $10 and $100 per hospital admission. Five State apply
copayment charges on a per day basis. Three of the five States use a $3 cost share
per day, one uses $5, and one varies between $2 and $3 depending on the cost of


                                          B-1
service. After reviewing this information, we felt the most conservative choice would
be a $3 copayment per total inpatient hospital days.

In order to estimate the cost savings to the Medicaid program if States without cost
sharing implemented cost sharing on these four services, we extracted the number of
paid semice claims for the States without cost sharing. However, Rhode Island data
was unavailable. Therefore, the cost savings estimates are based on 23 States without
cost sharing.

We calculated the cost savings estimate in three steps. (1) The number of services for
each State was multiplied by the cost sharing amount we selected. (2) Each State’s
service cost sharing amount was added to arrive at a total cost sharing amount.
(3) The total semice amounts for the four services were then added to project the
total cost savings if States were to implement cost sharing on these four services. The
numeric equations for this calculation follows:

           STEP 1                                STEP 2

       Si X $3.00 = STi           ST! + ST? + ST? + ... STiZ = TAsi
       SOx $3.00 = STO            STO1+ ST02 + ST03 + ... ST023 = TASO
                                  ST I+ ST2+ST3+...       ST==TAS
       ~X:z:3d                    Se + S~; + S{: + ... S~dD = TA&

                                   STEP 3

          TASi + TASO + TASP + TASd = Total Cost Savings Estimate


S = number of services

ST = each State’s total cost sharing amount by service type

TAS = Total of all States’ cost sharing amounts by service type

l-x = Each number 1 through 23 equals one State’s total

1. = inpatient hospital days
0 = outpatient   hospital
   = physician visits
P
 ~ = prescription drugs

We presented two dollar amounts for cost savings -- total cost sharing estimates with
and without exempted populations. To estimate the number of sexvices that would be
excluded under Federal regulation, we used State reported data on exclusions.

 States were asked how many of their recipients would be exempted from cost sharing.
 Out of the 17 States able to answer the question, 9 estimated 40 to 50 percent and 8
 estimated over 50 percent.




                                          B-2

Using this information, we selected SOpercent as the number of services to exclude
for the exempted populations calculation. However we realize that the number of
beneficiaries exempted may not equal the number of services exempted, since
exempted populations may use a greater or lesser percentage of certain sefices.

Cost Savikgs Tables

The following four tables illustrate the cost savings calculations for each semice type.
The fifth table provides the total cost savings estimate with and without exemptions
and the last tab~e divides total savings into Federal and States shares.

                  Savings Calculation for Inpatient Hospital Days


            1       statea

                Alaska
                                    Total Services



                                             53,417
                                                       Sewicaa x $3



                                                           $160,251
                                                                       Non-Exempt
                                                                        senfic$8

                                                                              26,706
                                                                                               Mm-exempt
                                                                                                  X$3

                                                                                                    $60,124

                Connecticut                 379,691      $1,139,673         169,945               $569,635

                Delawere                     61,255        $163,765            30,627               $91,661

                Georgia                   1,069,769      $3,20S,367         534,694              $1,604,662

                Hawaii                       70,456        $211,366           35,226              $105,664

                Idaho                        71 ,s93       $215,979           35,996              $107,966

                Indiana                     60S,076      $1,627,228         304,536               $913,614

                Kentucky                    593,s65      $1,761,965         296,997               $690,9s1

                Louisiana                   694,894      $2,064,662         347,447              $1,042,341

                Minnesota                   361,285      $1,063,655         160,642                $541,926

                Nebraska                    117,623        $352,669           56,811               $176,433

                Nevada                      115,665         $347,595           57,932              $173,7s6

                New Jersey                  933,760      $2,601,260         466,660              $1,400,640

                New Mexico                  131,393        $394,179           65,696               $197,066

                New York                  4,473,440     $13,420,320       2,236,720              $6,710,160

                North Dakota                  55,066       $165,204           27,534                $62,602

                Ohio                      1,202,636      $3,607,914         601,319              $1,603,957

                Oklahoma                    195,918        $567,754           97,959               $293,877

                Oregon                      155,606        $466,818           77,603               $233,409

                Rhode Island                      NA             NA                   NA                 NA
                                                                                                              I
                Tennessee                   754,690      $2,264,070          377,345             $1,132,035

                Texas                      1,599,667     $4,799,061          79s,643             $2,399,529

                Utah                          96,990       $290,970           46,495               $145,465

                Washington                  406,366      $1,219,096           203,163              $609,549

            L            ““total   j: “: ..14,205,%     $42,615,2f5     ,,, 7,702,*        :    $21,36?;626




                                                          B-3

Savings Calculation for Outpatient Hospital Services



 Alaska                         73,084   ]        $219,192   )         38,532     I      $109,s96
                    1                    1                   1                    1
 Connecticut                 1,111,299          $3,333,697            555,649           $1,666,947

 Delaware                      692,855          $2,677,985            448,327           $1,336,961

 Georgia                     5,148.675         $15.448.025          2,574,337           $7.723,011

 Hawaii                      2,647,094          $7,941,282          1,323,s7            $3,970,641

 Idaho                          37.470            S112.41O             18.735              $56205

 Indiana                     2,204,139          $6,612,417          1,102,069           $3,34)6,207

 Kentuckv                    1.384.708          $4.154.124            692354            $2.077,062

 Louisiana                     133,228            $399,884             88,814             $199,642

 Minnesota                   1.048.055          $3.144.185            524.027           $1.572.081

 Nebraska                       85,311            $255,933   I         42,655             $127,965    ]/

 Nevada                       203,386             $610,158            101,693             $305,079

 New Jersey                    995,812          $2,867,436            497,906           $1,493,718

 New Mexico                     72,110            $216,330             36,055             $108,185

 New York                    6.078.582         $24.235.888          4.039.281          $12.117.643

 North Dakota       I           87,354   \        $202S)62   I         33,677     I       $101 !031 II

 Ohio                        2,440,571          $7,321,713          1,220,285           $3,660,655

 Oklahoma                      115,458            $348,377             57,729             $173,187

 Oregon                         92,043            $276,129             46,021             $138S)63

 Rhode Island                       NA                  NA                   NA                 NA

 Tennessee
                    1
                             1,717,441
                                         1
                                                $5,152,323   I
                                                             1
                                                                      858,720
                                                                                  i
                                                                                        $2,576,180
                                                                                                      I
 Texas                         826,138          $2,478,414            413,069           $1,239,207

 Utah                        1,021,566          $3,084,764            510,794           $1,532,362

 Washington                  4,191,245         $12,573,735          2,095,622           $6,288,868

           ‘Total          34,!567,407       $103,782,221          17,293+698          $W,881 ,094




              Savings                                        Physician Visits

                        Tatal Saivices       Services x$1        No@xempt             Norr-6xempt
                                                                  Services                X$1

 Alaska                        196,529            $196,529             96,264              $96,264

 Connecticut                 1,831,991          $1,831,991            91 5,9%5            S915,9W

 Delaware                      377,440            $377,440            188,720             $188,720>

 Georgia                     5,976,371          $5,976,371          2,866,185           $2,986,185




                                               B-4

 Hawaii                4,967,763        $4,967,763    I   2,463,661         $2,463,661

 Idaho             I     232,423    I     $232.423    I     116,211     I     $116,211

 Indiana                1,542,267       $1,542,267          771,143           $771,143

 Kentucky              2,363,344        $2,363,344         1,191,672        $1,191,672

 Louisiana              9,151,352       $9,151,352         4,575,676        $4,575,676

 Minnesota              2,292,306       $2,292,306         1,146,153        $1,146,153

 Nebraska                917,483          $617,463          456.741           $456,741

 Nevada                  364,945          $364,945           162,472          $162,472

 New Jersey             3,352,290        $3,352,290        1,676,145        $1,676,145

 Naw Mexico              394,014          $394,014           197,007          $197,007

 Naw York               6,470,636        $6,470,636        3,235,419        $3,235,419

 North Dakota            472,104          $472,104           236,052          $236,052

 Ohio                   5,143,620        $5,143,620        2,571,810         $.2,571,810

 Oklahoma                 740,794         $740,794           370,397           $370,397

 Oregon                   393,261         $393,261           196,630           $196,630

 Rhode Island                  NA                NA               NA                 NA

 Tennessee         I    4,065,459   I    $4,065,459   I    2,032,729    I    $2,032,729II
 Texas                  9,627,597        $9,627,597        4,813,796         $4,813,796

 Utah                   1,666,551        $1,666,551          633,275           $633,275

 Washington             3,651,570        $3,651,570        1,625,765         $1,625,765

           Total       66,212,332       $66,212,332       33,1 06+160       $33,106,16U




           Savings Calculation for Prescription Drugs




II
 Alaska                   299,039          $299,039   I      149,519           $149,519

 Connecticut            3,449,149        $3,449,149        1,724,574         $1,724,574

 Delaware                 479,796          $479,796          239,696           $239,696

II
 Georgia                6,641,461        $6,641,461        4,420,740         $4,420,740


II
 Hawai~

 Idaho
                   z
                          600,000

                          750,107
                                    ,
                                           $600,000

                                           $750,107
                                                      ,
                                                             300,000

                                                             375,053
                                                                        I
                                                                               $300,000

                                                                               $375,053

 Indiana                3,261,632        $3,261,632        1,630,616         $1,630,616


II
 Kentucky

 Louisiana
                   1
                        7,254,476

                        6,167,936
                                    1
                                         $7,254,476

                                         $6,167,936
                                                      I
                                                           3,627,236

                                                           4,093,966
                                                                        1
                                                                             S3,627,236

                                                                             $4,093,966

 Minnesota              4,573,505        $4,573,505        2,266,752         $2,266,752




                                         B-5

               ! ..     ~fl~.          ~ Total Swvioee       SeNices   x $1     Non+xernpt
                                                                                  SeIvicee
                                                                                                     ,.   Nomexempt
                                                                                                             )($1’,

                    Nebraska                  1,979,626         $1,979,626              96s,813                $969,813

                    Nevada                     493,239            $493,239              246,619                $246,619

                    New Jersey                8,427,969         $6,427,969             4,213,964             S4,213,964

                    New Mexico                 1,454,446        $1,454,446              727,224                $727,224

                    New York                 26,166,221        $26,166,221            13,064,110            $13,064,110

                    North Dakota                607,665           $607,665               303,942               $303,942

                    Ohio                     15,319,466        $15,319,466             7,659,733             $7,659,733

                    Oklahoma                  2,373,166         $2,373,166             1,166,564             $1,166,564

                    Oregon                    2,100,122         $2,100,122             1,050,061             $1,050,061

                    Rhode Island                        NA               NA                    NA                    NA

                    Tennessee                  6,239,596        $6,239,596             4,119,799             $4,119,799

                    Texas                     11,474,997       $11,474,997             5,737,496             $5,737,496

                    Utah                       1,253,431         $1,253,431              626,715               $626,715

                    Washington                 5,270,693         $5,270,6W             2,635,346             $2,635,346

                1              Total         W@59,984         $122,659,964            6t ,429,986           $61,4291966

                     1 Since Hawaii proviakd number of pihk instead of prescnption.$ he 1991 prescription
                      number ww obtained jiom the National Pharmaceutical Council’s Pharmaceutical
                      Benclit.r Under State A4eai’calAssistance Proworrq September 1994p. 77.




                                                                              Calculation

         ,Types & Se@e:                 ~~        Savitigs without Exemptions                      Satigs       with‘Exemptions
  Inpatient    Hospital         Days                                    $42,615,285                                       $21,307,626
                                                    .


IIOutpatient        Hospital      Setvices                             $103,762,221        I                              $51,881,094

II Physician    vsits                          I                        $66,212,332        I                              $33,106,160




                                                                 B-6

                     Calculation for Federal and State Share of Savings




 AK

 CT
             50.00            $675,011           $437,506            $437,505           $437,503

                                                                                      $4,877,351
                                                                                                    I
                                                                                                           $218,752

                                                                                                         $2,436,676
                                                                                                                        I
                                                                                                                               $218,751

                                                                                                                             $2,436,675
                                                                                                                                             I
             50.00        $8,754,710           $4,877,355          $4,877,355
         I           !                   I                   I                   I                  I                   I                    I
 DE

 GA
         [
             50.00

             61.34
                     [
                          $3,718,966

                         $33,473,244
                                         I
                                         I
                                         \
                                               $1,658,483

                                              $20,532,486
                                                             ]
                                                             r
                                                             I
                                                                   $1,659,483

                                                                  $12,940,756
                                                                                 I
                                                                                 I
                                                                                 j
                                                                                      $1,659,480

                                                                                     $16,736,618
                                                                                                    I
                                                                                                    I
                                                                                                    I
                                                                                                           $929,740

                                                                                                        $10,266,241
                                                                                                                        I
                                                                                                                        I
                                                                                                                               $929,740

                                                                                                                             $6,470,377
                                                                                                                                             I
                                                                                                    I                   t                    I

 HI          54.14       $13,720,413           $7,428,232          $6,292,181         $6,660,206         $3,714,116          $3,146,090
         1           ,                                                           ,                  1                   1                    I

 ID          73.65        $1,310,919             $965,492            $345,427           $655,457           $462,744     ]      $172,713
                                                                                                                                             I
 IN
         t
             63.24
                     1
                         $13,243,564
                                         I
                                               $6,375,230
                                                             I
                                                                   $4,666,334
                                                                                 I
                                                                                      $6,621,760
                                                                                                    1
                                                                                                         $4,187,614
                                                                                                                        1
                                                                                                                             $2,434,166
                                                                                                                                             I
 KY          72S6        $15,573,929          $11,362,739          $4,211,190         $7,786,963         $5,661,366     I    $2,105,595
                                                                                                                                             I
 IA          74.46       $19,823,654          $14,764,656          .%5,056,996        $9,911,827         $7,362,329          $2,529,498

 MN          53.43       $11,093,631           $5,927,434          $5,166,397         $5,546,912         $2,963,715          $2,563,197

 NE          62.71        $3,505,911           $2,186,557          $1,307,354         $1,752,952    \    $1,099,276     I      $653,676

 Nv          50.00        $1,815,937             $907,969            $907,966           $907,966           $453,963            $453,963
         I           I                   1                   1                   I                  I                   I
 NJ          50.00       $17,566,975           $3,734,466          $6,764,467         $6,764,487         $4,392,244          $4,392,243

 NM          73.36        $2,456,971           $1,604,393            $654,578         $1,229,484           $802,185            $327,289

 NY          50.00       S70.295.065          635,147.533         $35.147.532        635.147.532        $17.573,766         $17,573,766

 ND          70.00        $1,447,255           $1,013,079            $434,178           $723,627           $506,S39            $217,066

 OH          59.93       $31,392,713          $18,813,653         $12,579,C60        $15,6%355           $9,406,826          $6,289,529

 OK          69.65        $4,046,093           $2,619,497          $1,228,596         $2,024,045         $1,409,747            $614,298

 OR          63.50        $3,236,330           $2,055,070          $1,181,260         $1,618,163         $1,027,534            $580,629

 RI          53.74                  NA                 NA                  NA                 NA                 NA                    NA

 TN          66.57       S19,721 ,4%          $13,522,996          $6,186,452         $9,660,723         $6,76f ,498         $3,099,225

 7X          63.53       $28,360,069          $18,029,658         $10,350,211        $14,190,032         $9,014,927          $5,175,105

 UT          74.68        $6,275,716           $4,699,664          $1,575,832         $3,137,657         $2,349,941            $787,916

 WA          54.21       $22,715,096          $12,313,654         $10,4OI ,242 I     $11 #357,545        $6,156,926     I    $5,200,620

                         $@M4$,m             $198,641,450        $136,806,372


1 Federal Medical Assistance Percentage (FMAP) - Rate of Federal Financial Participation in a State’s Medicaid Program for
  FY1S91.
2 Each State’s total savings for inpatient, outpatient, physician, and prescription drug sewices, assuming no recipients are
  exempted.
3 The Federal share ie arrived at by multiplying each State’s total savings by the FMAP.
4 The sate shae is arr~ed ~ by ~uKP~in9 each State,s total savin9s by (1 . FMAP), e.g, the calculation for Ohio would
  be eavinge multiplied by (1 - .5993) or .4007.
5 Each ~te,e tot~ sav]nge for inP@ie~ o~atie~,              ~hY~ician, and pre~criPtion dru9 se~iceq     e$$uming      50 percent   Of the

   recipients are exempted.




                                                                  B-7

                                  APPENDIX                              C


              COST SHARING ON MANDATORY                                          SERVICES
                                                                                     Rdcralfy
                                                                      Rural          QuaWi
     state	         Inpatient       Outpatient       Physician        Health         Heakb
                    HospiUd          Wspitall        &rvicea2         Clitic          C4mer

      AL             50.00 a           3.00            1.00            1.00            100             1.00

      Az                             5.00 n-e          1.00

      AR                             .50-3.00         .50-3.00       .50-3.00        .50-3.00        .50-3 .00

      CA
                          1.00/5.00n-e        1.00

      co             15.00 a
          3.00            2.00            2.00
      DC


      FL
                            1.00 n-e           1.00

       IL          2.00/3.00d


       fA


       Ks            2S.00a
           1.00             1.00
      ME
                            .50-3.00

      MD


      MA
                            3.00 n-e

       Ml

      MS              5.00 d
          2.00             1.00           2.00            Loo

      MO             10.00 a
         3.003

      MT              3.00 d
          1.00             1.00           1.00            1.00

      NH


      NC
                              3.00             3.00

       PA             3.00 d
         .50-3.00        .50-3.00        .50-3.00       .50-3.00         .50-3.00

       Sc


       SD
                           5 percent          2.00
      VT             50.00 a
          3.00

      VA            100.00 a4
         3.00          1.0W3.00

      w

       WI             3.00 d           3.00           .50-3.00       2.00-3.00                        .50-3.00

      WY                           3.00/3.00n-e         1.00

   Total states          il            16/5n-e     1“   15              ?              .5. ,            4
1 For ease of charting, we compreaaed non+mergency use of emergency room (n+?)wth OUtpatlefltWM-.

2 Some Sfatea include speciafii seMces, e.g., ophthalmology or medical psychotherapy, under physician services.

3 Includes 200 for outpatient seM@ and 1.00 for physicianseMce

4 Inpatient hoapitrd deductible

a = coat sharing per inpatient hospital admission

d = cost sharing per inpatient hospital day




                                                     c-1
                COST SHARING                     ON OPTIONAL                      SERVICES





      AL            .50-3.00           1.00	                     II                II              II
     3.00


      Az                                                         I                 I               I


      AR            .50-3.00         .50-3.00        .50-3.00


      CA              1.00             Loo             1.00             1.00             1.00

      co           .50 gL?.00b         2.00            2.00      I                 I               I

      DC               .50
                                      1                 1

                                                                                                   I

      FL              1.00             1.00            1.00            1.00 s            1.00

      IL

      IA              1.00         2.00/2.00o
      Ks              1.00             2.00

      ME          1.00 gf2.00b                       .50-2.00                                            .50-3.00


      MD              1.00
                                      I                  I              I


      MA               .50
                                      I                  I              I


      MI              1.00             2.00            2.00      I,
   3.00s        I    1.00      I

                                                                                    I              1



      MS              1.00                                       [
                                                                 I
                                                                        2.00        I
                                                                                    I
                                                                                                   I

                                                                                                   1




      MO             .50-2.00        .50-3.00        .50-3.00          .50-3.00

      MT              1.00             1.00            1.00             1.00                                .50


      NH           .50 g/LOOb                                                       I              I

                                                                 I

      NC              Loo          2.00/2.00o          1.00             3.00             1.00

                                                                 1                  1              1

      PA              1.00           .50-3.00        .50-3.00          .50-3.00         .50-3.00         .50-3.00

      Sc              1.50


      SD              1.00                                              1.00              .50            5 percent

      VT            1.00-2.00
                                   I                                 I

                                                                                    1


      VA              1.00             1.00
                     I                  1              I



      w              .50-1.00
                                                                     I

                                                                 I                  I

      WI              Loo              1.00          1.00-3.00         .50-3.00         .50il.oo         .50-3.00

                                                                 I                  I              I

      WY              1.00             1.00




1 For ease of charting, we c-ompreaaedoptometnctilon and optician services
 2 For ease of charting, we compressed dental servia+treatment with oral surgeV.
 b = brand name
g = generic
 o = optician aavices
 s = oral surgety




                                                      c-2
                  COST SHARING ON OPTIONAL SERVICES

                    Paychoklgy                            Ambulan&#
      state             F*                Audioloe        Tranaport                    MedbI           Proatbetic
                       therap+            Setices          Services   Eyeglasas        Supplies         Device

       AL                                                                                   1.00

       Az

       AR                                                  .50-3.00                                     .50-3.00

       CA                 1.00              1.00
       co              .50j15 min.

       DC                                                                2.00

       FL

        IL

        IA                2.00              2.00            2.00                            2.00          2.00

       KS                 2.00              3.00             1.00                                         3.00

       ME                                  .50-2.00        .50-2.00                     .50-3.00

       MD

       MA

       MI

       MS                                                    2.00        2.00

       MO                                  .50-3.00                     .50-3.00                       .50-3.00 ae

       MT              .50fl hour            .50                          1.00              .50            .50

       NH

       NC                                                                2.00

       PA                    .50                           .50-3.00     .50-3.00        .50-3.00        .50-3.00

       Sc

       SD                                                                                   1.00       5 percent

       VT

       VA

       w

       WI               .50-2.00            1.00           .50-300      .50-3.00            .50

       WY                    1.00

   Total States “.,.          8:     ‘7               I       7            7                 7     I       7

1 For eaae of charting, we compreaaed psychiatric, psychological,and PsychotherapyaeMcea.
 ae = artificial eye




                                                           c-3
                       COST SHARING ON OPTIONAL SERVICES
                      H~*ll tidsf,.        t%me                                    Denntred
 ~                ,   HearingAid           Health      Physical     Clinic. ‘[17   Denture         Ompixbal
     Staic .!:’‘. swvbYi                  ~_           -m.tT@y      suwf?a          SCwiCa          llta’apy
      AL
      Az
      AR                                  2 percent
      CA                                                 1.00        1.00                             1.00

      co

      DC

       FL               5 percent                                                  5 percent

       IL

       IA                 3.00                           Loo

       Ks                                   2.00
      ME                                  .50-2.00     .50-2.00                                      .50-2.00

      MD

      MA

       MI                 3.00

       MS                                   2.00                    1.00 s

      MO                 .50-3.00                                                  5 percent

      MT                   .50              1.00          .50       1.00 d                             .50

      NH

      NC

       PA                                                           .50-3.00        .50-3.00

       Sc

       SD                                                                             3.00

       v-r

      VA                                    3.00         3.00        1.00                             3.00

      w

       WI             .50/l.oo/3.oo                   1.00/30min.                     3.00         1.00/30min.

      WY

  Total   Staka             6         I        6          6            5       i       5       [        5

s = State clinic
d = diagnostic clinic




                                                        c-4
              COST SHARING                        ON OPTIONAL                 SERVI~
                  ,.                                 COmrdunityl.     %ivMe?Xty:
                                     AmbulatoW        Mental            Numef
    : $&e             speech           Surgisal        Health          l%l%ona’t .“
                      T&.t-apy         Centers        Centers            GUY?.               other

       AL                                3.00

       Az                                                                                        a

       AR                                                               2 percent
       CA               1.00             1.00                                                    b
       co                                                 200
       DC

       FL
        IL

        IA                                                                                    c,d/-2.oo
       Ks                                3.00             2.00                             dr3.oo,e/3.oo

       ME             .50-2.00                                           .50-3.00
       MD

       MA

       MI

       MS

       MO

       MT                .50                              1.00             .50                e/1.00,f
       NH

       NC

       PA                              .50-3.00                                                  g
       Sc

       SD                                              5 percent                                 h

       V-r
       VA               3.00

       w

       w            1.00/30 min.                                                                 i

       WY

   TWA Sym?s:             ‘5       I        4                 4               3                   11
  = non-emergency surgery/5.00,dlagnostdrehabthtatwe x-ray and lab semcedl .00

b = acupuncture/1.00

c = rehabilitation agency seMcea/2.00

d = orthopedic shoes or orthotica

e = outpatient surgery

f = home diatysW.50jfree standing diaiysii center/1.00, social worker/.5Oper hour, licensed counselor/.5Oper hour

g =	 diagnostic radiology/nuclear medicine/radiation therapy/medical diagnostic seMces (when billed in total or onfy
     technieal component is billed)/1.00,all other covered seMces/.5O-3.00
h = EPSDT screening/dental proeedurea/optometric,      or optical proeedurea for those over age 18fl.00
i = Medical day treatment and aaseasment/.5Oper day



                                                   c-5
APPENDIX    D




AGENCY COMMENTS




      D-1
         8,,,                                                                          Health Care
            G
                    DEPARTMENT OF HEALTH& HUMAN SERVICM                                Financing   Administration
       &
    2~
#
�
‘*3E-$                                                                                 Memorandum
    Oate            “Ullm
                                                                                                                    ..
    From
                     Bruce C. Vladeck
                     Administrator

    Subject	         Office of Inspector General (OIG) Draft Report:   ‘lMedicaid Cost Sharing”
                     (OEI-03-91-01800)
    To          ,
                     Bryan B. Mitchell

                     Principal Deputy Inspector General



                            We have reviewed the above-mentioned draft report which presents findings on
                     the impact of State cost sharing policies on the Medicaid program.

                            The Health Care Financing Administration nonconcurs with the
                     recommendation contained in the report. Our specific comments are attached for
                     your consideration.

                            Thank you for the opportunity   to review and comment on this draft report.
                     Please advise us if you agree with our position oh the report’s recommendation at
                     your earliest convenience.

                     Attachment

                                               qL




                                                                                                                    —
                                                                                                                          .. .
                                                                                                                         --

                                                                                                   .        .




                                                              D-2

             ~
                    the Office of Insuector General fOIGl Draft Renort:
                          Medicaid Ost Sharine. OEI-03-91-01800
                                                                                               ..
 Recommendation

 The HCFA should promote the development           of effective cost sharing programs within
 States.

 (1) The HCFA could encourage States to implement         cost sharing.   The HCFA could
 accomplish this by:

        o	       providing the States with technical assistance and information about
                 State experiences with mt sharing

        o	       alJowhg States to experimentwith cost sharing programs that target new
                 populations and mike? more substantial cost sharing amoun~, and/or

        o	       recommending changes to Federal requirements allowing for greater
                 State flexibility in determining exempted populations and sexvices, and
                 allowing higher recipient cost sharing amounts.

- (2) The HCFA could seek legislation to provide States with incentives to implement
  cost sharing programs, such as decreasing Federal matching to States who do not
  implement cost sharing.

 (3) The I-?CFA could seek legislation to mandate cost sharing for aIl States.

 Resr)onse

 HCFA noncortcurs with this recommendation.        We believe cost sharing should remain

 a voluntary State option.


 The legislative history of section 1916 of the Social Security Act indicates that it was

 designed to allow States greater flexibility in the use of cost sharing without imposing

 unnecessary hardships on Medicaid recipients. Current regulations prow-de the States          —

 with a wide variety of options, an~ thus, a considerable degree of program and

 administrative flexibility. Some of these options are as follows: (1) use of enrollment
       --
 fees or premiums for the medically needy rather than copayments; (2) use of

 deductibles rather than copayments; (3) ability of States to relate recipient cost            -

 sharing to income (within maximum amount specified in regulations) and to charge

 different amounts to medically needy and categorically needy recipients; and

 (4) optional use of cumulative maximums for all deductibles, coinsurance, or





                                            D-3

Page 2

copayments charged to a family. While we agree that there is sufficient evidence to

suggest that cost sharing saves money for the Mate Medicaid program and the Federal ~‘

government, we believe that any changes in cost sharing policies should also be viewed -

in terms of its effect on Medicaid recipients.


There are significant variations of the Medicaid program among States. Consequently,

advocating cost sharing may have differing effects on Medicaid recipients. Since

States are looking at ways to decrease welfare payments, increased cost sharing may

mean increased copayments for recipients who, in turn, will have even less money for

other basic maintenance needs which have also risen in cost.


There are also potential difficulties with the implementation of cost sharing for

outpatient prescription medications. One potential difficulty is that access to drugs

may be limited, and the dollar savings on drugs may be outweighed by the use of high

cost semices, emergency rooms and potentially avoidable hospitalizations because of

adverse comphations experienced by persons who do not obtain their prescriptions.

Any recommendation that includes prescription drugs should be reviewed to ensure

that it does not conflict with other State options for limiting access to outpatient drugs

for Medicaid such as limits on the number of prescription transactions per month or

on the supply (e.g., 30-day supply, &month supply), or a State’s option to totally

excIude certain drugs from reimbursement. These other limitations am also cause

high-cost adverse health care needs. Furthermore, the added demand for a

copayment, particularly if it is based on a percentage of total charge for the drug

which is already high, can pIace an added burden on the Medicaid recipient.


Another consideration is the impact of cost sharing on providers of care for the

Medicaid population. The burden for collection of “shared cost” is shifted to the

provider. In some parts of the Medicaid program, provider reimbursement for care to

Medicaid eligiiles functions more as a disincentive than an incentive. The need for

the provider to collect a copay from the Medicaid population may well function simply

as another cap on provider fees rather than a true recipient share in the cost of

medical care. Although OIG mentions that the burden is on the provider to collect

the copay, this report would be enhanced by showing how copay is related to physician

fees, especially the new HCFA physician fee schedule. For crossover patients covered

by Medicare and Medicaid, the physician is subject to the Medicare physician fee       –

schedule and the limits of State Medicaid program reimbursement rates. Cost sharing --”

should not serve as a bam”er to receiw”ngnecessaxy medical sexvices. The question of

whether providers deny medical c&e because of a failure to collect the patient’s”

shared portion of cost is possibly important, but reportedly unknown to those in the

State Medicaid offices.





                                          D-4

Page 3

bstly, we believe that no further action should be taken pending the development
and announcement of the Administration’s health care proposal. However, if OIG            ~‘
decides to issue this report in final, we suggest that the report be shared with the      -
States.

Technical Comments

The section of the report entitle~ “Previous Cost Sharing Studies” could be improved
by referencing the studies and adding caveats about the serious methodological flaws
or shortcomings in them. We would not want them presented as useful testimony for
current day practices or future program and policy recommendations.

In the Executive Summary Findings, the potential savings are shown as being between
$167 to $335 mdlion annually. We suggest adding a statement to explain that
varianm..,C*    “. . . . savings of $167 million under current law, and $335 million if
existing exemptions for covered populations and services were to be legislatively
repealed.”




                                                                                          —




                                         D-5

                                                                              ::~ Zii!i+-’ -
       “‘ +*




....   4 —-
  -%,m,,atc
                    DEPARTMENT OF HEALTH&        HUMAN



                                                           ~
                                                               SERVICES Dr~­



                                                                   30 199g$/%
                                                                                               /
                                                                                               1-
                                                                                                        ington, DC.   20201




               MEMORANDUMTO:	        ~ryan B. 14itchell
                                     Principal Deputy              Inspect ‘2”+=
                                                                              r General

               FROM             ..   Elizabeth        M.   James                               &    .
                                     Acting  Assistant             Secretar      for
                                       Managemen~      and         Budget
                                                                      Wk
                                                                                                 v
               SUBJECT          .
                                . OIG Draft           Report       on Medicaid         Cost   Sharxng
                                     &A-cj~!-G’g&(2

               Thank you for the opportunity        to review     this  draft    report.
               Focusing on the area of cost containment             is important     and the
               report    obtained    some good information     through    the executive
               interviews.        We are, however,  concerned     with the conclusion        that
               Ilthe report     demonstrates  that states     have developed       COSt  sharing
               programs     that reduce Medicaid expenditures.~
               We wish to raise two issues concerning your findings and the ~                                               ~
               ensuing recommendations. First,       the sample size and data are=                                          m
               insufficient    to support the findings.       This conclusion is bas~                                       F>~
                                                                                                                         ~)111~

               on the following:                                                                                         Qc c)

                                                                                    w                                    ..-fl

                                                                                    o	                                   “--m

                                                                                                                         -d-6”

                                                                                                                              —
               �       Of the 27 states, only three provided program evaluation                                          :.U)<
                                                                                                                         :-~~
                       data (two of which were inconclusive).                       ~
                                                                                                                            ma
               �      22 states said that the cost sharing programs had reduce~                                             ~
                      Medicaid expenditures. However, only 11 provided financ-1
                      data depicting estimated savings.
               �      Only one of the state’s estimates of savings included
                      reductions in utilization. The remainder represented
                      reductions in provider payments.
               �	     The calculated savings estimates may be overly simplified.
                      The maxinum value was calculated simply by multiplying the
                      number of 1991 claims by a ‘frequently used~ copayment. A
                      50 percent exemption of services was assumed to arrive at
                      the minimum value. A SO percent reuipient �xemption is not
                      necessarily equal to a 50 percent service exemption.
               Second, the analyses of the sample data do not cover the

               interactions between cost sharing and other cost containment

               polices which could have influenced the observed Medicaid

               savings. For example,

               �	     No analysis of changes in provider participation has been
                      done. The only state with conclusive program evaluation
                      data indicated that provider participation had remained
                      stable not because recipients were paying the copayment but
                      mainly because pursuit of the nominal amount was more
                      expensive than the value of the copayment.

                                                                D-6
�	   17 states implemented other cost containment programs at the
     same time as their cost sharing and thus were unable to
     truly measure the effect of cost sharing.
�	   There is no attention to the burden incurred        by recipients
     and providers     from cost sharing   programs.  States   are
     uncertain    whether  recipients   are actually paying the
     copayments.

We believe additional sample data needs to be collected and
analyzed before conclusions can be drawn as to the effectiveness
of cost sharing programss Perhaps a primary recommendation of

this report should be that HCFA pursue further analysis in this

area.





                                       D-7

